  Office of Inspector General
      Audit Report


IMPROVEMENTS NEEDED IN FTA’S GRANT
       OVERSIGHT PROGRAM
        Federal Transit Administration


        Report Number: MH-2012-168
         Date Issued: August 2, 2012
           U.S. Department of
                                                                    Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Improvements Needed In FTA’s Grant                                           Date:    August 2, 2012
           Oversight Program
           Federal Transit Administration
           Report No. MH-2012-168

  From:    Joseph W. Comé                                                                    Reply to
                                                                                             Attn. of:   JA-40
           Assistant Inspector General for
              Highway and Transit Audits

    To:    Federal Transit Administrator

           The Federal Transit Administration (FTA) provides funding to more than 1,200
           State and local grantees to enhance the effectiveness and efficiency of the Nation’s
           transit systems. From fiscal year 2006 through fiscal year 2010, FTA awarded
           over $57 billion in grants. To establish proper stewardship over these Federal
           investments, FTA has an Oversight Program covering 15 review areas, focusing
           on grantee compliance in specific areas, including civil rights, as well as broader
           areas, such as management of Federal funds. FTA’s regional offices, as well as its
           contractors play an important oversight role in ensuring that grantees spend funds
           effectively; comply with Federal laws and regulations; and prevent fraud, waste,
           and abuse.

           At FTA’s request, we examined its regional oversight efforts, focusing on FTA’s
           Region III, based in Philadelphia, Pennsylvania. Our objectives were to assess
           whether: (1) FTA Headquarters provides its regions and contractors with adequate
           guidance and oversight for key reviews and audits 1 to accurately identify and track
           grantee deficiencies, (2) Region III effectively follows up on grantee deficiencies,
           and (3) FTA has clear criteria to assess Region III’s use of remedies or sanctions
           to address deficiencies. 2

           To conduct our work, we reviewed guidance and oversight tools FTA
           Headquarters applied across all regions and documentation related to the fiscal

           1
               Key reviews were Triennial Reviews, State Management Reviews, Financial Management Oversight reviews,
               Procurement System Reviews, and Office of Management and Budget Circular A-133 single audits.
           2
               49 U.S.C. requires grantees to meet certain conditions to be eligible to receive Federal funds and prescribes remedies
               and sanctions for grantees’ programs that fail to comply with Federal administrative or statutory requirements.
                                                                                                                       2


year 2011 Department of Transportation (DOT) consolidated financial statement
audit. 3 We selected a random sample of 18 of 60 Region III grantees and reviewed
Region III’s grantee files, findings from key reviews conducted from fiscal year
2006 through fiscal year 2010, and A-133 (single) audits for fiscal year 2010. We
also interviewed FTA Headquarters and Region III staffs. Exhibit A provides more
detail on our audit scope and methodology. We conducted this audit from
March 2011 through June 2012, in accordance with generally accepted
Government auditing standards. Exhibits B and C provide more information on
FTA’s 15 oversight review areas and regional office locations, respectively.
Exhibit D provides a list of the 18 grantees selected.

BACKGROUND
FTA Headquarters shapes the direction of FTA’s oversight efforts by providing
agencywide policies, guidance, and tools to its regions and contractors. FTA uses
contractors to conduct the vast majority of grantee oversight reviews in each
region, but retains the responsibility to oversee the work performed by its
contractors. FTA contractors document the results of their reviews in written
reports and by entering review finding data into FTA’s oversight tracking system
(OTrak). 4 FTA’s internal control process for closing out review findings requires
regions to monitor grantee compliance with resolving review findings and
implementing corrective actions that result from key reviews and audits and to
close out the review findings in OTrak.

From fiscal year 2006 through fiscal year 2010, FTA obligated approximately
$75 million nationally to contractors for review areas in its Oversight Program.
Table 1 shows the amount obligated by review area.




3
    U.S. Department of Transportation, “Agency Financial Report Fiscal Year 2011,” November 2, 2011.
4
    OTrak is the official record keeping system for FTA’s oversight program. OTrak is designed to assist in planning,
    tracking, and monitoring the follow-up activities for post-grant award reviews on FTA recipients. FTA contractors
    and regional staff are required to use OTrak to enter, track, and close every finding from each of the key reviews and
    audits.
                                                                                                                3


Table 1. FTA Oversight Obligations from Fiscal Year 2006
through Fiscal Year 2010

  Review Area                                                                          Totals
                   a
  Triennial Review                                                                     18,082,769
                           a
  State Management Review                                                               6,122,092
                             a
  Procurement System Review                                                             9,850,133
                      a
  Financial Oversight                                                                  32,731,993
                         b
  Civil Rights Oversight                                                                8,219,834
  TOTAL                                                                              $75,006,821
 Source: FTA
 a
   Denotes one of the key reviews for the purposes of this audit.
 b
   Civil Rights Oversight encompasses four different review areas—Americans with Disabilities Act, Title VI of the
   Civil Rights Act of 1964, Disadvantaged Business Enterprise, and Equal Employment Opportunity.

In February 2012, FTA announced that it conducted a top-to-bottom review of its
oversight practices, including a review of FTA’s statutory and regulatory
requirements and an assessment of its current oversight products and practices to
determine whether they are relevant and effective in meeting those requirements.
FTA stated it would be implementing some improvements to its oversight
procedures in fiscal year 2012 and fiscal year 2013.

RESULTS IN BRIEF
FTA Headquarters does not provide its regions or contractors with adequate
guidance or oversight to ensure they consistently identify and accurately track
deficiencies found during key reviews and audits of FTA grantees. We identified
three key areas in which Headquarters’ guidance or oversight was not sufficient.
First, FTA’s guidance does not provide consistent standards for data collection and
reporting across the key review types, which hinders FTA’s ability to identify
repeat findings, compare findings across review types, conduct trend analysis, and
evaluate outcomes from the overall Oversight Program. For example, Financial
Management Oversight reviews and Triennial Reviews name similar findings
differently, even for the same grantee, which makes it difficult for FTA to identify
findings that recur across these review types. Second, FTA Headquarters’
oversight of its regions or contractors is not adequate to ensure they accurately
enter data in OTrak, FTA’s oversight tracking system. Our statistical sample of
368 Region III key review findings determined that the review contractor did not
enter data in OTrak in the required “Discussion” and “Recommendation” fields in
69 instances (nearly 19 percent). Third, FTA does not emphasize the importance
of quality in its performance measures and assessments. For example, FTA
established performance measures for the Triennial Review and State
Management Review programs that focused solely on timeliness, such as closing
findings within 30 days of their due date, not quality. The guidance and oversight
deficiencies we identified impede FTA’s ability to fully assess grantees’
                                                                                                             4


compliance with Federal program requirements and call into question the return on
investment of its Oversight Program.

FTA’s Region III has not effectively followed up on grantee deficiencies
identified through key reviews. FTA requires its regional staff to follow up on
findings for key reviews and to obtain documentation from grantees and maintain
files to show that those findings have been resolved fully before closing them in
OTrak. However, we estimated through statistical projection that almost
24 percent of the key review findings for all Region III grantees lacked sufficient
documentation that grantees took the prescribed corrective actions to support
closure. 5 This lack of support was primarily attributable to Region III’s practices
of closing findings before they were resolved, poor recordkeeping, or both.
Closing findings before they are resolved inhibits FTA’s ability to know whether a
grantee completely addressed a deficiency and distorts FTA’s performance
measure for the Triennial Review and State Management Review programs, which
is based on timeliness of finding closure.

FTA does not have clear guidance on how and when regional offices should use
remedies and sanctions to encourage grantees to address deficiencies. 6 In addition,
FTA Headquarters does not systematically track their use across its regions. FTA’s
existing guidance generally describes actions that regions can take, but does not
establish clear criteria for when they should be used. For the 5-year period we
analyzed, Region III reported using sanctions against 1 of the 18 grantees in our
sample. This one grantee had 26 findings in a single review. Region III did not
implement sanctions for another grantee that had 33 findings in one Triennial
Review—the most of any selected grantee in a single review over the same
period—even though it had similar deficiencies as the sanctioned grantee. We
could not determine whether Region III should have taken action in the latter
situation because FTA lacks definitive guidance on when to use remedies or
sanctions. While we recognize that the number of findings is only an indicator of
problems, FTA has not instituted a risk-based approach to using remedies and
sanctions that would emphasize those findings that could place Federal funds at
risk or lead to safety consequences, if preventive maintenance issues are not
addressed. In the absence of clear guidance or a tracking process, FTA has an
insufficient basis to determine whether regions appropriately use remedies and
sanctions.

We are making a series of recommendations to enhance the overall effectiveness
of FTA’s regional oversight of transit grants.

5
    Our estimate has 90 percent confidence limits ranging from 19 percent to 29 percent.
6
    Remedies include letters to grantees documenting noncompliance and follow-up reviews or contractor support.
    Sanctions include suspending Electronic Clearing House Operation system (ECHO) draw down privileges and
    delaying or denying grant funds. ECHO processes draw down requests from and makes payments to FTA grantees.
                                                                                                                    5


FTA LACKS ADEQUATE GUIDANCE AND OVERSIGHT TO
IDENTIFY AND TRACK GRANTEE DEFICIENCIES
FTA Headquarters does not provide its regions or contractors with adequate
guidance or oversight to ensure they consistently identify and track grantee
deficiencies. 7 Specifically, FTA has inconsistent standards for data collection and
reporting. Further, FTA Headquarters does not adequately oversee its regions or
contractors to determine whether they are accurately entering data in OTrak.
Because the guidance and oversight practices apply to all FTA regions, this
finding is not unique to Region III. Finally, FTA’s performance measures and
assessments focus on the timeliness, not the quality of regional and contractor
oversight efforts. The guidance and oversight deficiencies we identified impede
FTA’s ability to fully assess grantees’ compliance with Federal program
requirements and call into question the return on investment of its Oversight
Program.

FTA Does Not Have Sufficient Guidance To Ensure Consistency and
Accuracy in Regional or Contractor Oversight Efforts
FTA Headquarters does not provide its regions or contractors with sufficient
guidance to ensure they consistently identify and accurately track deficiencies
found during key reviews and audits. For example, of the four key reviews we
assessed, only Triennial Reviews and State Management Reviews have succinct
and conventional naming guidelines for each finding, which promote consistency
and enable FTA to analyze findings in OTrak across fiscal years and grantees. For
the Financial Management Oversight reviews and Procurement System Reviews,
similar review findings are named differently in each review report and in OTrak.
To illustrate, one Financial Management Oversight review finding that a
contractor entered in OTrak had the lengthy title, “The tests of fixed asset
maintenance procedures, indicates that approximately 58 percent of preventive
maintenance inspections were either performed late, or were not performed at all.”
Another Financial Management Oversight review titled a similar finding
“Preventative Maintenance Not Performed Timely.” In contrast, any Triennial
Review would title a similar finding, “04—Late Vehicle Preventive Maintenance.”
An FTA official acknowledged the difficulties posed by the lack of
standardization in the OTrak finding language, stating that it led to problems in
developing a list of top 10 findings to use in identifying common or systemic
findings.

Because key reviews do not present similar findings in a standardized way and
OTrak lacks a data field to identify repeat findings, FTA cannot readily search for

7
    Examples of reported deficiencies include: improper advance or progress payments, ineligible expenses charged to a
    grant, inactive grants or untimely closeouts, and outstanding annual audit deficiencies.
                                                                                  6


trends or recurring findings across various review types and fiscal years.
Identifying common or systemic findings is critical in determining a grantee’s
“risk” level in FTA’s annual grantee oversight assessment process and for
identifying instances of continued noncompliance with certain Federal program
requirements.

FTA Headquarters Does Not Provide Adequate Oversight of Data
Entered into OTrak
FTA Headquarters does not provide adequate oversight of its regions and
contractors to determine whether they are accurately entering data into OTrak,
after completing reviews or follow-up activities. Despite the importance of having
accurate information in OTrak, we found errors in data for both single audits and
key reviews. For example, for fiscal year 2010, Region III incorrectly entered 4 of
16 (25 percent) of the single audit findings in OTrak. Three of the findings entered
did not relate to FTA programs and one was from a Triennial Review, not a single
audit. In addition, our statistical sample of 368 Region III key review findings
found that the review contractor did not enter data in the required “Discussion”
field in 46 instances (12.5 percent) and did not enter data in the
“Recommendations” field in 23 instances (6.25 percent). FTA’s checks on data
accuracy were insufficient to identify the omissions we found. According to FTA
officials, Headquarters program managers performed limited quality assurance
checks on all data elements from 10 percent of the reports issued in a fiscal year
and did not select the reports using a statistical sample, but judgmentally selected
the reports. FTA subsequently reported that, in December 2011, it began
identifying and reconciling reviews in OTrak with incomplete data and that this
process was ongoing as of July 2012.

These vulnerabilities are not unique to Region III. For example, in a fiscal year
2011 review, DOT’s financial statement auditor found that FTA Regions VI (Fort
Worth, Texas) and X (Seattle, Washington) were not complying with FTA’s
standard operating procedures for OTrak data entry. For example, in Region VI,
the auditor reviewed all open findings from prior oversight reviews
(approximately 270 findings) and found that OTrak did not contain clearly
documented data on the status of the prior year’s findings or entries on whether
follow up actions were conducted. The financial statement auditor also found that
both regions have not complied consistently with FTA’s April 2010 guidance
requiring regions to enter all single audit information into OTrak. Based on these
findings, FTA concurred with the financial statement auditor’s recommendation
that FTA management perform oversight ensuring its regional offices comply with
FTA’s procedures to document in OTrak review and audit findings.

While FTA agreed to address the OTrak issues that the financial statement auditor
identified, OTrak will not function effectively as a “system of record” for
                                                                                                                      7


monitoring review findings until it contains complete and accurate data. As a
result, FTA’s ability to accurately assess a grantee’s overall compliance and
determine how it allocates oversight resources within regions for the next fiscal
year is impeded. Without using a statistical sample, FTA does not have a
representative assessment of the results of contractor omissions or the ability to
make projections for the Oversight Program’s overall quality of data.

FTA’s Performance Measures and Assessments Focus on
Timeliness, Not the Quality of Regional and Contractor Oversight
FTA’s performance measures and assessments for its Triennial Reviews and State
Management Reviews focus on completing reviews and closing findings in a
timely manner. The measures do not relate to the quality of the oversight efforts of
the regions and contractors. Only two reviews—Triennial and State Management
Reviews—have performance measures, which FTA uses to assess the performance
of regions and contractors. 8 FTA Headquarters is responsible for reviewing
contractor performance and taking appropriate action to resolve outstanding
issues. Yet, FTA’s assessment of contractors’ performance on the Triennial and
State Management Reviews is limited, focusing primarily on contractors’
completion of their reports within 30 days of the exit conference with a grantee.

Additional FTA contractor performance assessment efforts are informal and do not
occur regularly. FTA Headquarters has not systematically collected contractor
performance information from the regions, even though regional staff interact with
the contractors on a regular basis. FTA’s Region III staff stated that they raised
concerns to FTA Headquarters about the quality of some FTA contractors’
performance, including their concern that some contractors misunderstood FTA
requirements. An FTA official stated that FTA evaluates contractors’ technical
abilities during the contract solicitation phase. In addition, FTA Headquarters
officials stated that program managers do not evaluate contractors’ technical
capabilities as part of their performance assessment and that the availability of
travel funds determines whether these managers perform random site visits to
evaluate contractors’ performance. According to FTA, it is developing a contractor
assessment form to more systematically collect the contractor performance
information from its regions.

In a June 2009 report, the Government Accountability Office (GAO) made
recommendations to improve FTA’s performance measures for the Triennial


8
    FTA’s two performance measures to assess timeliness of steps in Triennial Review and State Management Review
    programs are: (1) 80 percent of Triennial Review and State Management Review findings are to be closed within 30
    days of their due date (“Close Findings Timely”) and (2) 95 percent of the final Triennial Review and 100 percent of
    the final State Management Review reports are to be issued within 30 days of the completion of the review (“Issue
    Reports Timely”).
                                                                                                        8


Review program consistent with our findings. 9 The report included
recommendations for developing performance measures to assess the outcomes of
the Triennial Review program, such as the development of a method for
evaluating improvements in grantee performance in meeting more Federal
requirements over time and the quality of the Triennial Reviews through improved
contractor oversight, testing, or inspection. As of March 22, 2012, FTA had not
addressed these recommendations. In our opinion, these recommendations would
also apply to the State Management Review program because it uses measures
similar to those GAO identified. Additionally, the recommendations could be
expanded to other FTA key review programs and its overall Oversight Program,
which currently lack performance measures.

The weaknesses in the guidance and oversight practices that we found, which
apply to all FTA regions and contractors, point to overall limitations in FTA’s
ability to fully assess grantee compliance with Federal program requirements. The
limitations also impede FTA’s ability to assess the results of its Oversight
Program, which cost $60.4 million for the key reviews alone from fiscal year 2006
through fiscal year 2010.

FTA REGION III HAS NOT EFFECTIVELY FOLLOWED UP ON
GRANTEE DEFICIENCIES
FTA Region III has not effectively followed up on grantee deficiencies identified
through key reviews, a central responsibility of each FTA regional office. Region
III staff sometimes closed findings before they were resolved or did not maintain
documentation supporting the closure in the grantee files, contrary to FTA
guidance. These practices inhibit FTA’s ability to determine whether grantees
sufficiently addressed identified deficiencies. Further, Region III’s practices could
distort FTA’s performance measure for the Triennial Review and State
Management Review programs, which is based on timeliness of finding closure.

Region III has not consistently followed FTA’s established guidance for following
up on grantee deficiencies. According to FTA Order 5400.1, “Oversight Reviews,”
all regions are to obtain documentation from grantees to show that key review
findings were fully resolved before closing them. However, FTA Region III did
not follow this guidance consistently. For example, one grantee was instructed to
submit documentation that all of its procurement staff either had received or was
scheduled to receive the necessary training on FTA procurement requirements.
Even though the grantee advised that it had not yet selected a training program to
initiate the training, Region III officials closed the recommendation. Region III

9
    GAO Report Number GAO-09-603, “Public Transportation: FTA’s Triennial Review Program Has Improved, But
    Assessments of Grantees’ Performance Could Be Enhanced,” June 30, 2009.
                                                                                                                     9


staff requested that another grantee develop and maintain an inventory of real
property purchased with Federal funds. In response, that grantee submitted a draft
inventory that it acknowledged was incomplete, but Region III closed the finding
anyway—noting that the grantee needed to take additional follow-up steps on the
finding.

Based on our analysis of the 368 key review findings that the 18 grantees in our
sample had from fiscal year 2006 through fiscal year 2010, we estimated through
statistical projections that almost 24 percent (199 of 842) of the key review
findings for all Region III grantees lacked documentation or sufficient support to
justify closure. 10 This lack of support primarily was attributable to Region III’s
practices of closing findings before they were resolved, poor recordkeeping, or
both.

In Region III, review contractors identified a significant number of grantees in our
sample that had repeat findings in subsequent reviews, indicating that the
corrective actions were ineffective or that FTA did not properly close the findings
the first time. The recurring findings related to various policy, financial
management, and maintenance issues. We determined that 10 of the 14 grantees in
our sample that had multiple reviews in fiscal year 2006 through fiscal year 2010
had identical findings. For example, two grantees had two or more reviews that
identified “Late Vehicle Preventive Maintenance” as a finding. A third grantee had
deficient documentation for FTA’s ECHO system transactions in its 2006
Triennial Review, which the review contractor labeled as a high impact finding.
We reviewed the documentation submitted to close this finding and determined
that it was insufficient to address the recommendation. The contractor reported the
same deficiency in the grantee’s 2009 Triennial Review, demonstrating that the
issues had not been satisfactorily resolved. Closing findings before they are
resolved provides little assurance that the grantees are being held accountable for
taking the necessary actions to resolve deficiencies and, therefore, allowed to
continue with patterns of noncompliance with Federal requirements.

Region III staff stated that FTA Headquarters pressured them to close findings by
their due date, which could have led staff to close findings before they were
resolved. FTA Headquarters confirmed that FTA holds regional administrators
responsible for closing findings within 30 days after their due date and
periodically reports each region’s progress in meeting this measure. Despite the
agencywide focus on timeliness, FTA Headquarters stressed that it expects the
regions to obtain evidence from the grantees showing that the findings have been

10
     Our estimate is based on our analysis of 368 findings wherein we found that Region III’s grantee files did not
     contain any documentation showing that these grantees took the prescribed corrective actions before 42 findings
     were closed, and did not contain sufficient support to justify closing an additional 34 findings. Our estimate has
     90 percent confidence limits ranging from 19 percent to 29 percent.
                                                                                10


fully resolved before closing them. However, FTA Headquarters does not have a
process to verify that the regions actually obtained the necessary documentation to
support closure. As a result, FTA runs the risk that regions will prematurely close
findings in an effort to meet the performance measure. GAO’s work has raised
similar concerns. In June 2009, GAO reported that inaccuracies in data for past
Triennial Reviews raised questions about whether “close findings timely” was a
reliable performance measure.

FTA DOES NOT HAVE CLEAR GUIDANCE FOR USING AND
TRACKING REMEDIES AND SANCTIONS
FTA does not have clear guidance that spells out how and when regional offices
should use remedies and sanctions. Our review found that Region III rarely used
remedies and sanctions. FTA’s guidance, which is under review by the agency,
generally describes actions that can be taken by regions, but does not establish
clear criteria regarding when regions should use remedies or sanctions for certain
types of review findings. In addition, FTA Headquarters does not systematically
track the use of remedies and sanctions. In the absence of clear guidance or a
central process for tracking their use, FTA is impeded in its ability to assess
whether regions’ use of these measures was successful in encouraging grantees to
address deficiencies identified in key reviews.

FTA’s Guidance for Identifying When Regions Should Use Remedies
or Sanctions Lacks Specificity
FTA has not given its regional offices clear guidance defining when staff should
use remedies and sanctions. Instead, FTA Order 5400.1, issued in 1994 and
applicable to all regions, outlines a general process for using remedies and
sanctions for noncompliant grantees. The process identifies three levels of
noncompliance, encompassing eight phases—six for remedies and two for
sanctions, as shown in table 2. Although the Order provides examples to help
regional staff determine which noncompliance level to place a grantee in, it does
not clearly link types of findings to particular remedies and sanctions—such as
indicating that certain recurring findings or certain types of findings would
warrant a particular remedy or sanction.
                                                                                                11


Table 2. FTA Order 5400.1’s Process for Remedies and Sanctions
Level I Noncompliance – Remedies
First time or one-time violation of Federal administrative requirements, such as delinquent or
incomplete quarterly progress reports, failure to request required FTA concurrence, inadequate
financial reporting, or failure to keep complete property records.

    Phase 1 – Notify the grantee of the noncompliance finding, the required remedial action, and
    provide technical assistance.

    Phase 2 – Determine acceptability of the resolution plan, monitor grantee progress, and
    validate corrective action.
    Phase 3 – Grantee failure to take corrective action within 1 year moves the noncompliance or
    deficiency issue to Level II.


Level II Noncompliance – Remedies
Grantees who have posed a “history” of unsatisfactory performance through Level I, or grantees
identified as “high risk” for violating FTA written policies, such as known non-competitive
procurements or sole source procurements, or failure to adequately resolve compliance findings.

    Phase 4 – Notify the grantee of the “high risk” determination, the special conditions that
    apply and the reasons for imposing them, required corrective actions, and time allowed for
    completing them, and the method of requesting reconsideration.

    Phase 5 – Review grantee progress for compliance on no less than a monthly basis, and
    provide oversight resources to define more specific recommendations.

    Phase 6 – A letter detailing the nature of the outstanding issues, providing a formal warning,
    and the intent to impose sanctions if corrective actions are not taken.



Level III Noncompliance – Sanctions
FTA has worked with the grantee for more than 2 years to achieve compliance. The grantee has
shown little willingness or ability to take corrective actions.

    Phase 7 – Place restrictions on future grant approvals involving the area of noncompliance
    and restricts receipt of funds in existing grants until corrective measures are taken, remove
    grantee's access to ECHO payments or prohibit fund drawdowns, and disallow all or part the
    activity not in compliance.

    Phase 8 – Suspend in whole or part or terminate the current grant award for cause, or
    withhold further grant awards until full compliance.
Source: FTA Order 5400.1

For the 5-year period we analyzed, Region III reported using a sanction for 1 of
the 18 grantees in our sample, and reported using no remedies during this period.
The grantee for which the Region acknowledged implementing a sanction—the
City of Winchester, Virginia—had 26 findings in its first Triennial Review. The
                                                                                                    12


grantee was required to submit manual payment requests with supporting
documentation, in order to receive payments, until the numerous findings were
satisfactorily addressed. FTA grantees normally draw down funds from ECHO
without providing documentation. In contrast, Region III did not implement
sanctions against another grantee, the Borough of Pottstown, Pennsylvania, which
had 33 findings in one Triennial Review—the most of any selected grantee in a
single review over the 5-year period we analyzed. This grantee had a drawdown-
related deficiency. For the remaining 15 grantees in our sample that had a
Triennial Review from 2006 through 2010, 11 another grantee had a lower number
of findings than the City of Winchester, but its findings from two Triennial
Reviews were for insufficient documentation supporting its ECHO drawdowns.
We could not determine whether Region III should have taken action in the latter
two cases because FTA does not provide clear guidance as to when regions should
use remedies and sanctions. While the guidance for using remedies and sanctions
would not necessarily need to identify a specific number of findings that would
trigger a remedy or sanction, a risk-based approach could place greater emphasis
on using remedies or sanctions for those findings that might put Federal funds at
greater risk of inefficient or inappropriate expenditure or lead to safety
consequences, such as those stemming from preventive maintenance issues, if they
are not timely corrected.

In October 2011, FTA informed us that it was no longer using the remedies and
sanctions process outlined in FTA Order 5400.1, pending an internal evaluation,
even though the Order is technically still in effect. FTA expects to develop new
standard operating procedures for the use of remedies and sanctions and revise the
Order to incorporate these procedures in fiscal year 2013. However until the Order
is revised, FTA Headquarters cannot systematically assess whether regions are
appropriately using remedies and sanctions to resolve grantee deficiencies.

FTA Headquarters Does Not Systematically Track the Use of
Remedies and Sanctions
FTA Headquarters does not systematically track regional use of remedies and
sanctions. We identified instances where Region III had actually used remedies
but neither Region III nor FTA Headquarters had tracked them. Region III
provided us with information indicating that it used sanctions in only one instance
and did not use any remedies during the 5-year period covered in our review.
However, in applying FTA’s guidance, we found remedies that Region III did not
identify, indicating that FTA’s definition of what constitutes a remedy may not
have been clear to the Region. For example, as a result of the Maryland
Department of Transportation Maryland Transit Administration’s fiscal year 2006
combined State Management Review and Triennial Review, Region III requested

11
     One selected grantee did not have a Triennial Review performed during the period we audited.
                                                                                  13


a follow-up Triennial Review for fiscal year 2007. These reviews typically are
conducted every 3 years, not annually, so the fiscal year 2007 Triennial Review
would be considered a follow-up review and, therefore, a remedy. We also
identified five more potential remedies where a Financial Management Oversight
review was performed in the same or following year of a Triennial Review or
State Management Review. However, neither Region III nor FTA Headquarters
tracked these actions as a remedy.

FTA Headquarters provided examples of other regions’ use of sanctions, but FTA
officials stated FTA does not systematically track their use and that the regions do
not notify FTA Headquarters of all sanctions. FTA acknowledged that its regions
notify Headquarters only when they use certain significant sanctions, such as
suspending ECHO privileges or denying a grant. We reviewed the documentation
FTA provided but could not determine whether these examples represented a
consistent application of sanctions due to the lack of a tracking process. Because
FTA Headquarters does not have processes for systematically tracking remedies
and sanctions, it does not have a sufficient basis to assess whether regions
appropriately and consistently use these measures to resolve grantee deficiencies
and ensure compliance with Federal requirements.

CONCLUSION
FTA awards billions of dollars in grant funds each year to more than
1,200 grantees across its 10 regions. However, insufficient guidance and oversight
from FTA Headquarters, as well as the number of specific deficiencies in Region
III, demonstrate that a more robust Oversight Program is needed to ensure that
Federal funds are used efficiently and effectively. According to FTA, it recognizes
these vulnerabilities and is conducting a comprehensive review of its Oversight
Program. These efforts could go far in providing FTA additional insight into how
its Headquarters, regional staff, and review contractors, are operating and identify
opportunities to improve the consistency and results of its numerous oversight
reviews, including the effectiveness of follow-up actions. Keeping those efforts on
track is critical to improve its oversight of transit grantees and ensure appropriate
stewardship of Federal funds.
                                                                               14


RECOMMENDATIONS
We recommend that the Federal Transit Administrator:

1. Develop guidance with uniform review data collection and reporting
   procedures that, at a minimum, will enable FTA to identify common or
   systemic findings and compare findings across reviews for a particular grantee,
   conduct trend analysis, and evaluate outcomes from the overall Oversight
   Program.

2. Establish more robust methods for assessing contractor performance by:

   a. Using a statistically valid quality assurance process for reviewing the data
      in contractors’ reports and OTrak to determine whether contractors meet
      quality level acceptance requirements.

   b. Completing the development of a contractor assessment form for the
      systematic collection of contractor performance information from regional
      staff, which, at a minimum, addresses contractor technical expertise, and
      use the information collected when procuring future oversight reviewers.

3. Develop performance measures to assess the effectiveness of the outcomes of
   its overall Oversight Program, in addition to the timeliness of program outputs
   currently measured.

4. Develop policies and procedures, including oversight mechanisms, to verify
   that regions do not close findings before they receive documentation showing
   that a finding has been resolved fully.

5. Revise and finalize policies and procedures for using remedies and sanctions,
   including application of a risk-based approach for their use.

6. Require FTA Headquarters staff to track and oversee each region’s use of
   remedies and sanctions.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

We provided FTA with our draft report on June 6, 2012. FTA provided technical
comments on July 18, 2012, and its formal response on July 20, 2012. FTA’s
formal response is included in its entirety as an appendix to this report, and we
incorporated FTA’s technical comments where appropriate. FTA fully concurred
with all six of our recommendations and provided appropriate planned actions
and target dates for their completion.
                                                                          15


FTA’s actions, both those taken and planned, are responsive to our
recommendations and we consider all six recommendations resolved but open
pending completion of all planned actions.

ACTIONS REQUIRED
In accordance with follow-up provisions in Department of Transportation Order
8000.1C, we request that FTA provide our office documentation demonstrating
completion of its planned actions within 30 days after they are completed.
Accordingly, all six recommendations will remain open pending receipt of this
documentation.

We appreciate the courtesies and cooperation of the Federal Transit
Administration’s representatives during this audit. If you have any questions
concerning this report, please call me at (202) 366-5630 or Wendy M. Harris,
Program Director, at (202) 366-2794.
                                       #

cc: Angela Dluger, FTA Audit Liaison (TBP-30)
    Martin Gertel, DOT Audit Liaison (M-1)
                                                                                  16



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted our work from March 2011 through June 2012 in accordance with
generally accepted Government auditing standards as prescribed by the
Comptroller General of the United States. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.

To assess whether FTA Headquarters provided its regions and contractors with
adequate guidance and oversight for key reviews and audits to ensure grantee
deficiencies are consistently identified and accurately tracked, we obtained and
reviewed key documentation from FTA including FTA’s formal guidelines (such
as FTA Circular 5010.1D, Grant Management Requirements, and FTA Order
5400.1, Oversight Reviews), internal FTA guidance provided to the regional
offices from FTA Headquarters, and internal FTA correspondence that apply to all
of FTA’s regions. We also reviewed documentation related to the fiscal year 2011
DOT consolidated financial statement audit, which included assessments of
oversight in FTA Regions VI and X, and relevant GAO reports. In addition, we
interviewed FTA Region III and Headquarters staffs to gain a better understanding
of their roles and responsibilities, their use of FTA documents that guide their
activities, and the extent to which FTA Headquarters oversees regional and
contractor oversight efforts.

To assess whether Region III effectively followed up on grantee deficiencies, we
worked with the OIG statisticians to select a probability proportional to size
sample of 20 out of 60 Region III grantees stratified by size (based on the amount
of total obligations, as of April 12, 2011) and region-assigned oversight level,
weighted by the number of key review and audit findings conducted from fiscal
year 2006 through fiscal year 2010. Due to our sample design, 2 grantees were
selected twice, which reduced the number of unique grantees selected from 20 to
18. For each selected grantee, we reviewed documentation from OTrak, the Single
Audit Clearinghouse (if applicable), and the grantee’s file from Region III
regarding regional efforts to follow up on each of the 368 findings that the selected
grantee had from reviews conducted from fiscal year 2006 through fiscal year
2010 and findings from 16 single audits in fiscal year 2010. We also determined
whether any of the findings for these grantees were repeat findings during this
time period. For closed findings, we determined whether the support the grantee
provided was sufficient for FTA to close the finding. We also interviewed FTA
Region III staff to enhance our understanding of the Region’s follow-up efforts.
The sampling allowed us to estimate the percentage of Region III’s key review




Exhibit A. Scope and Methodology
                                                                               17


findings that did not have support for closure, with 90 percent confidence and +/-
5 percent precision for the 842 findings in our universe.

To assess whether FTA has clear criteria to assess Region III’s use of remedies or
sanctions to address deficiencies, we identified FTA guidance for using remedies
or sanctions, such as FTA Order 5400.1. We also interviewed FTA Region III staff
and collected supporting documentation to determine whether the Region used any
remedies or sanctions in response to the deficiencies identified, and interviewed
FTA Headquarters staff members to get a better understanding of FTA’s remedies
and sanctions policies.




Exhibit A. Scope and Methodology
                                                                                           18


EXHIBIT B. FTA’S 15 OVERSIGHT REVIEW AREAS
Review Area             Responsible
                                   *      Description
                        FTA Office
1. Grant Oversight      Office of         FTA completes Grantee Oversight Assessment
   Assessment           Program           Questionnaires, which serve as baseline information
                        Management        for each grantee’s capacity and determine the risk
                        (TPM)             the grantee’s program may represent for the
                                          Federal program. Based on this information, FTA
                                          makes decisions about which grantees receive
                                          oversight reviews during the coming year. Regional
                                          staff uses the information to develop oversight plans
                                          and to allocate oversight resources within the region
                                          for the upcoming fiscal year.
2. Triennial Review     TPM               Evaluates Urbanized Area Formula Program
                                          grantees’ grant management performance and
                                          compliance with current FTA requirements. The
                                          reviews must be conducted for each formula grant
                                          recipient at least once every 3 years. When
                                          appropriate, corrective actions are recommended to
                                          resolve a grantee’s program management
                                          deficiencies. FTA monitors the grantee’s actions
                                          until   compliance      with    identified program
                                          requirements is achieved. If needed, FTA can
                                          invoke sanctions to ensure that the grantee acts to
                                          correct any noted program deficiencies.
3. State Management     TPM               Assesses      a    State’s     implementation   and
   Review                                 management of the Elderly Individuals and
                                          Individuals with Disabilities and the Non-Urbanized
                                          Area Formula Programs to ensure the programs
                                          meet FTA requirements and program objectives.
                                          The review follows a format similar to the Triennial
                                          Review and is conducted every 3 years.
4. Financial            TPM               FTA has several types of Financial Management
   Management                             reviews including: (1) a Full Scope Systems review
   Reviews                                that determines whether the grantee has in place
                                          proper financial controls and checks and balances
                                          to manage and track Federal funds and (2) a follow-
                                          up to a Full Scope review primarily to ensure that
                                          recommendations resulting from full scope reviews
                                          are implemented and working properly.
5. Procurement System   TPM               Ensures that Federal procurement requirements
   Review                                 and standards for grants are met.
6. Americans with       Office of Civil   Assesses civil rights compliance, which is required
   Disabilities Act     Rights (TCR)      by recipients and subrecipients of Federal




Exhibit B. FTA’ s 15 Oversight Review Areas
                                                                                                  19


 Review Area                Responsible
                                       *       Description
                            FTA Office
 7. Title VI of the Civil                      assistance. FTA retains the right to review grantee
    Rights Act of 1964                         compliance status at any time during the life of the
                                               project.
 8. Disadvantaged
    Business Enterprise
 9. Equal Employment
    Opportunity
 10. State Safety           TPM                Monitors and evaluates compliance with FTA’s
     Oversight Program                         State Safety Oversight Rule as part of FTA’s
                                               triennial audits of rail transit agencies. These audits
                                               provide in-depth reviews of each State’s program,
                                               and provide a forum to recommend improvements
                                               to the effectiveness of the State’s oversight
                                               program.
 11. Planning               Office of          Provides guidance and assistance to and evaluates
     Certification          Planning and       grantees considering projects seeking New Starts
                                                                                 *
     Review                 Environment        and Small Starts program funding.
                            (TPE)
 12. Safety and             TPM                Monitors and evaluates a rail transit agency’s
     Security Industry                         compliance with FTA’s State Safety Oversight Rule
     Guidance                                  and assesses grantee activities to enhance the
                                               personal security of passengers and employees and
                                               to support core emergency response capabilities.
 13. Drug and Alcohol       TPM                In-depth reviews of grantee and State programs,
     Audit                                     including a detailed examination of records and
                                               interviews with grantee personnel, contractors, and
                                               service agents, such as collection sites, medical
                                               review officers, substance abuse professionals, and
                                               third-party administrators.
 14. Research,              Office of          Reviews grant recipient’s compliance with the
     Demonstration,         Research and       requirements of the cooperative agreements for
     and Cooperative        Innovation (TRI)                     *
                                               research projects.
     Agreements
 15. Oversight              TPM                Specialized reviews of a grantee that needs
     Guidance                                  additional oversight or is designated as high-risk.
Source: Unless otherwise noted, FTA Circular 5010.1D, Grant Management Requirements, dated
November 1, 2008
*
  Administration and Management of Oversight Programs Standard Operating Procedures Manual, October
2008.




Exhibit B. FTA’ s 15 Oversight Review Areas
                                                      20


EXHIBIT C. FTA’S REGIONAL STRUCTURE




               STATES COVERED BY FTA REGION III

           Delaware
           Maryland
           Pennsylvania
           Virginia
           West Virginia

           District of Columbia, including the D.C.
           Metropolitan Office




Exhibit C. FTA’ s Regional Structure
                                                                                          21



EXHIBIT D. 18 SELECTED REGION III GRANTEES
                                                                       TOTAL OBLIGATIONS
GRANTEE                                          LOCATION              (as of April 12, 2011)
Washington Metropolitan Area Transit Authority   Washington, DC              $ 1,838,993,779
Port Authority of Allegheny County               Pittsburgh, PA              $ 1,144,118,869
Maryland Department of Transportation -          Baltimore, MD                 $ 892,961,813
Maryland Transit Administration
Delaware River Port Authority                    Camden, NJ                    $ 175,454,834
Virginia Department of Rail and Public           Richmond, VA                  $ 137,848,617
Transportation
Delaware Department of Transportation            Dover, DE                      $ 80,870,310
City of Richmond                                 Richmond, VA                   $ 42,871,564
Lehigh and Northampton Transportation            Allentown, PA                  $ 28,845,440
Authority
Town of Blacksburg                               Blacksburg, VA                 $ 18,531,854
Williamsburg Area Transit Authority              Williamsburg, VA               $ 16,000,854
City of Charlottesville                          Charlottesville, VA            $ 10,709,221
Southwestern Pennsylvania Commission             Pittsburgh, PA                  $ 9,303,679
City of Philadelphia                             Philadelphia, PA                $ 6,926,171
Beaver County Transit Authority                  Rochester, PA                   $ 6,371,620
Borough of Pottstown                             Pottstown, PA                   $ 4,646,001
Tri-State Transit Authority                      Huntington, WV                  $ 3,360,663
City of Winchester                               Winchester, VA                  $ 2,138,970
Hazleton Public Transit                          Hazleton, PA                    $ 1,541,904




Exhibit D. 18 Selected Region III Grantees
                                                        22



EXHIBIT E. MAJOR CONTRIBUTORS TO THIS REPORT
Name                                 Title

Wendy M. Harris                      Program Director

George Lavanco                       Project Manager

Tiffany Mostert                      Senior Analyst

Michael Dzandza                      Auditor

Rosa Scalice                         Auditor

Joseph Tschurilow                    Auditor

Petra Swartzlander                   Statistician

Megha P. Joshipura                   Statistician

Harriet Lambert                      Writer-Editor




Exhibit E. Major Contributors to This Report
                                                                                               23



APPENDIX. AGENCY COMMENTS

                                                     Memorandum
           U.S. Department
           of Transportation
           Federal Transit
           Administration

Subject:     INFORMATION: Management Response to the Office                Date:    July 20, 2012
             of Inspector General Draft Report on FTA’s Grant
             Oversight
  From:      Peter M. Rogoff                                            Reply to
             Administrator
                                                                        Attn. of:   Angela Dluger
                                                                                    (202) 366-5303
    To:      Calvin L. Scovel III
             Inspector General

             The Federal Transit Administration (FTA), responsible for investing billions
             each year in safe and effective public transportation across the Nation, works
             hard to ensure that each dollar invested is done so wisely and effectively. A
             critical part of FTA’s work involves providing effective oversight for all aspects
             of recipients’ programmatic and financial management where Federal funds are
             involved. As Administrator, I believe it is important to periodically take a hard,
             objective look at the systems, processes, and practices in place to ensure they are
             functioning as intended and to identify areas for further improvement. For this
             reason, in 2011, I directed FTA senior management to perform a nation-wide,
             top-to-bottom review of our Oversight Program. As a result, FTA is making
             critical improvements to its oversight processes, including more specific
             standardization of processes across regions, enhanced performance measures,
             and a more risk-based approach that will provide greater visibility into and more
             forward-looking feedback to recipients. To ensure that no stone is left unturned,
             I also requested the Office of Inspector General (OIG) to conduct this review to
             dig deeply into the operation of a single region. We appreciate the OIG’s efforts
             and will carefully consider the results of this draft report as we continue to
             strengthen FTA’s Oversight Program.

             FTA Review Will Result in Targeted, Risk-based and Forward Looking
             Oversight

             FTA established a working group chaired by the Deputy Administrator to see
             how well our Oversight Program’s established processes were working and to
             ensure that the processes in place will serve FTA well in the future. We were
             particularly interested in determining whether changes were needed to ensure




Appendix. Agency Comments
                                                                                       24


     FTA oversight processes are risk-based, forward-looking and targeted to
     recipients’ particular oversight review needs.

     As a result of the review, FTA introduced a revised State Management Review
     for Fiscal Year 2012. The changes incorporate greater risk-based analysis by
     strengthening questions in high risk areas such as procurement, program
     management, and financial management, and streamlining questions in other
     review areas. At the conclusion of the review cycle, we will seek feedback from
     the State Departments of Transportation and their sub-recipients about the
     changes and will make additional improvements in Fiscal Year 2013 based on
     what we learn.

     More improvements to FTA’s oversight processes are underway that will better
     focus oversight and enhance consistency. We are revising our oversight
     assessment and review processes to provide more consistent and useful
     information focused on high impact areas and to anticipate where recipients may
     need technical assistance as they implement new programs. To improve internal
     processes, FTA is developing Oversight Program Standard Operating Procedures
     (SOPs) to provide more consistent practices across regions and implementing
     new and better performance measures that will further emphasize quality
     outcomes. FTA is also enhancing our oversight data tracking system (OTrak).
     Finally, FTA is preparing to introduce a transformed Triennial Review process
     for Fiscal Year 2013.

     RECOMMENDATIONS AND RESPONSE

     Recommendation 1: Develop guidance with uniform review data collection and
     reporting procedures that, at a minimum, will enable FTA to identify common or
     systemic findings and compare findings across reviews for a particular grantee,
     conduct trend analysis, and evaluate outcomes from the overall Oversight
     Program.

     FTA Response: Concur. FTA is developing Oversight Program SOPs,
     including one specifically related to data collection and reporting. These SOPs
     will clarify existing procedures and strengthen direction to FTA staff and
     contractors as to the data to be entered into the system, the parties responsible for
     data entry and monitoring, and the timelines for data entry and updates. To the
     extent possible, this will include tracking types of findings across review
     programs for a particular recipient. FTA expects to implement the SOPs by
     September 30, 2013.

     Recommendation 2: Establish more robust methods for assessing contractor
     performance.

     FTA Response: Concur. In February 2012, FTA initiated work on a SOP for
     Performance Evaluation of Oversight Contractors. The SOP will include


Appendix. Agency Comments
                                                                                     25


     performance monitoring, documentation, and timeliness requirements for the
     FTA Regional Offices and the Headquarters-based Oversight Program
     Contracting Officer’s Representatives. Under the SOP, FTA will make more
     systematic use of the Contractor Performance Assessment Reporting System.
     FTA expects to complete implementation of this process by September 30, 2012.
     Recommendation 3: Develop performance measures to assess the effectiveness
     of the outcomes of its overall Oversight Program, in addition to the timeliness of
     program outputs currently measured.

     FTA Response: Concur. During Fiscal Year 2013, FTA will implement
     performance measures that assess the effectiveness of the Oversight Program
     outcomes qualitatively, as well as quantitatively. FTA will use its fiscal year-end
     reports, which already include findings and deficiencies by region, when
     considering various performance measures. FTA expects to implement these by
     September 30, 2013.
     Recommendation 4: Develop policies and procedures, including oversight
     mechanisms, to verify that regions do not close findings before they receive
     documentation showing that a finding has been resolved fully.

     FTA Response: Concur. FTA is developing a set of Oversight Program SOPs
     which will clarify the requirements for closing findings. FTA will also consider
     how best to leverage Headquarters resources to perform a random sample-based
     verification of closed findings and supporting documentation. FTA expects to
     implement the procedures and review by September 30, 2013.

     Recommendation 5: Revise and finalize policies and procedures for using
     remedies and sanctions, including application of a risk-based approach for their
     use.
     FTA Response: Concur. FTA expects to complete the revision of its oversight
     procedures by September 30, 2013, which will include guidelines for the use of
     remedies and sanctions. FTA is preparing a more rigorous risk-based approach
     which will yield results not only in terms of the quality and depth of the
     evaluations themselves, but in the identification of appropriate remedial actions
     and sanctions. While the required follow-up actions will be based on the specific
     findings of each individual case, we expect that the general nature of the remedy,
     urgency of response, and expectations of the recipients for compliance will be
     applied more consistently under the clarified procedures.

     Recommendation 6: Require FTA Headquarters staff to track and oversee each
     region’s use of remedies and sanctions.

     FTA Response: Concur. FTA expects to revise its oversight procedures by
     September 30, 2013, which will include a process for documenting the use of
     remedies and sanctions. This will allow us to track actual remedies and
     sanctions.


Appendix. Agency Comments
